                                          NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                     CLOSEOUT MEMORANDUM

11   Case Number: A09070063                                                    Page 1of 2


         We received an allegation1 that a PI'$ proposal3 contained misleading statements,
         and the PI's claims of collaboration were overstated. The statements asserted that
         (a) the PI and three co-PIs4 have been members of a group associated with the
         experiment since its inception, and (b) the PI and co-PIS are funded by another
         federal agency. The first statement was allegedly misleading because the subject
         and all three co-PIS were not members of the group. The second statement was
         allegedly misleading because the PI and one of the co-PIs5 did not list funding from
         the other agency in their statements of Current and Pending Support (CPS) in the
         proposal.
         During our initial review of these allegations, we received an additional allegation
         that persons other than the assigned program officer were inappropriately involved
         in the assessment and recommendations regarding the PI's proposal, which was
         subsequently declined.6
         We reviewed the allegations regarding the alleged misleading statements in the
         proposal, and determined they did not merit further investigation. The proposal
         sentence in controversy is conjunctive, and does not clearly imply that each
         individual is a member of the group and each has funding from the other agency. In
         fact, two of the co-PIS reported funding from the other agency in their CPS, and the
         PI and third co-PI noted that they were applying for funding from the other agency
         in the near future. With reference to the group membership, the sentence does not
         clearly claim membership for all of the individuals and does not indicate whether
         the membership(s) is current. Thus, while the sentence would be improved by
         enhanced clarity, we did not think it merits further analysis.




 NSF OIG Form 2 (11102)
                                       NATIONAL SCIENCE FOUNDATION
                                       OFFICE OF INSPECTOR GENERAL
                                         OFFICE OF INVESTIGATIONS

                                 CLOSEOUT MEMORANDUM

Case Number: A09070063
                                                                    1       Page 2 of 2


    We reviewed the allegations regarding the decision-making about the proposal, and
    determined that the proposal declination did appear to have been based on
    information that should not have been considered. We communicated our findings
    to NSF, which included them in the reconsideration process it had undertaken at
    the request of the PI. NSF assessed the review record, concluded the decision to
    decline was not based on the two merit review criteria NSF uses to evaluate
    proposals, and reversed the declination.
    Accordingly, this case is closed and no further action will be taken.
